                                        CLOSEOUT FOR M97050017

            This case came to OIG on May 9, 1997, when we received an anonymous letter raising
     three concerns about ethical improprieties in NSF's administration of the proposal review
     process in NSF's                                                          competition (the
      m a - h T
     competition).                                                             in the-
eht(-                                    division). Our review of NSF records suggested a fourth
     concern.

          The competition posed unusual problems for NSF. The proposals in the competition
  included numerous "partner" institutions, making it difficult for NSF to find knowledgeable
  reviewers who were unaffiliated with any of the institutions that were listed as partners in any
  of the proposals in the competition. The proposals did not request funds for many of the
  institutions listed as partners.

            The first concern was that -(hte                    first subject) of the 0
 -(h
   te                        university) was both a member of the NSF panel that reviewed
  proposals for the competition and a faculty member at a university that was a partner in one of
  the proposals the panel reviewed. According to 5 681.21(b)(l) of NSF's Conflicts of Interests
   Rules and Standards of Conduct (NSF's Conflicts Manual),' current employment at an
   institution automatically disqualifies a person fromahandlingproposals and awards from that
   institution. OIG determined that the proposal in which the fust subject's university was listed
   as a partner did not request funds for the university. NSF's Office of General Counsel advised
  the division that a partnership like this did not create a conflict of interests that would bar
   someone from serving on the review panel. OIG received no evidence or allegation suggesting
  that the first subject had any other undisclosed conflict of interests that would bar h i from
   serving on the panel.

          The second concern involved the membership of NSF's
                                            (the task force), which !sued a report that led NSF to
  desl'gn the competition and solicit proposals for it. The anonymous complainant alleged that
  the home institutions of all but one of the task force members were included as partners in the
  proposals NSF chose to fund as a result of the competition. The complainant implied that
  proposals that included participation by task force members or their home institutions had an
  unfair advantage in the competition.
              - -




  I Conflicts Manual § 681.25(d) instructs NSF officials to use the standards in § 681.21 to guide them in
  determining whether peer reviewers have a conflict of interests.


                                               page 1 of 3                                      M97-17
                                 CLOSEOUT FOR M97050017


         Section 680.21(d) of NSF's Conflicts Manual provides that "where a general policy
determination of the Government might . . . affect the home institution of an NSF officer or
employee, but only in the same manner as all similar institutions, the officer or employee may
participate in that determination." According to this standard, NSF could appropriately
include employees of potential applicant institutions as members of the task force. The
anonymous complainant presented no evidence that task force members' home institutions had
any special advantage in the competition (i.e., that they were not "treated in the same manner
as all similar institutions"). The complainant's implied view that they had a special advantage
is purely speculative and lacks substance.

       The third concern was that the first subject's association with a key participant in one of
the proposals in the competition should have barred the first subject from serving on the review
panel. The first subject was the principal investigator for an award that funded a workshop
(the workshop a ~ a r d ) .The
                            ~ workshop occurred while the competition was in progress. Dr.
               (the key participant), a key participant in one of the successful proposals in the
O    w     a    s listed in the workshop proposal as a potential member of the workshop
organizing committee.

        OIG learned that the workshop proposal originated from a federal interagency working
group and that NSF officials played major roles in identifying candidates for membership in
the organizing committee. Some of these officials were involved in administering the
competition and aware of this shared involvement. There is no evidence or allegation that the
key participant was the first subject's hand-picked, like-minded collaborator or had the kind of
close relationship with the first subject that might compromise the first subject's objectivity in
reviewing the key participant's work. We concluded that there was no evidence that the first
subject's relationship with the key participant should have caused him to be excluded from the
review panel.

        As previously noted, NSF's Conflicts Manual (8 681.25(d)) instructs NSF officials that
the standards in 8 681.21, which govern program officers' conflicts of interests, should guide
them in determining whether peer reviewers have a conflict of interests. Section 681.21(~)(5)
lists "collaboration on a project or on a book, article, report, or paper within the last 48
months" as a relationship that NSF officials should bring to the attention of a conflicts official.
Participation in such collaborations does not normally or automatically disqualify a person
from reviewing a collaborator's work. OIG concluded that it was reasonable to interpret the
key participant's shared involvement in organizing the workshop as not being a collaboration
within the meaning of this provision and as not creating a conflict of interests. We concluded
that it was a matter of judgment as to whether the first subject should have brought this shared
involvement to the attention of an NSF conflicts official, but that failing to do so was clearly
not a serious impropriety.


                            entitled



                                       page 2 of 3                              M97-17
                                 CLOSEOUT FOR M97050017

       The fourth concern is that an NSF program officer in the division,     0
(the second subject), had an unresolved conflict of interests arising from the workshop award.
The second subject was employed as a member of the faculty of the first subject's university
and was working at NSF as part of an Intergovernmental Personnel Act agreement. NSF
records list the second subject as the program officer responsible for the workshop award, even
though the second subject's employment creates a conflict of interests that automatically
disqualifies him from handling this award.

          OIG examined the program jacket for the workshop award. Both the proposal text and
the diary notes in the jacket indicated that for the most part another program officer in the
division-                         (the other program officer), handled the award, and that the
second subject had not participated in any decisions about the handling of the award. OIG
interviewed the other program officer, whose account of how the award was handled gave no
indication that the second subject played a role in the matter. The division director c o ~ i r m e d
this account.

       We concluded that the anonymous complainant's concerns lacked substance. This
inquiry is closed and no further action will be taken on this case.




                                       page 3 of 3
